No. _________
IN THE SUPREME COURT OF THE UNITED STATES

RAFAEL AYALA-SOLORIO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
October 12, 2020

No. 20-10170
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Rafael Ayala-Solorio,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-265-1
Before Clement, Higginson, and Engelhardt, Circuit Judges.
Per Curiam:*
Rafael Ayala-Solorio appeals his sentence of 120 months of
imprisonment and three years of supervised release, which the district court
imposed following his guilty plea conviction for illegal reentry, in violation of
8 U.S.C. § 1326. He argues that the recidivism enhancement set forth in

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

No. 20-10170

§ 1326(b) is an element of the offense that must be alleged in the indictment
and proven beyond a reasonable doubt to a jury. He therefore argues that his
guilty plea is invalid because he was not advised of an element of the offense
and that his sentence is illegal because the application of § 1326(b) increased
the statutory maximum terms of imprisonment and supervised release. He
concedes that the issue is foreclosed by Almendarez-Torres v. United States,
523 U.S. 224 (1998), but he seeks to preserve the issue for further review.
The Government moves for summary affirmance, asserting that AyalaSolorio’s argument is foreclosed. Alternatively, the Government seeks an
extension of time to file a brief.
The parties are correct that Ayala-Solorio’s claim is foreclosed by
Almendarez-Torres. See United States v. Wallace, 759 F.3d 486, 497 (5th Cir.
2014); United States v. Rojas-Luna, 522 F.3d 502, 505-06 (5th Cir. 2008).
Accordingly, summary affirmance is GRANTED, see Groendyke Transp.,
Inc. v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969), the Government’s
alternative motion for an extension of time to file a brief is DENIED, and
the judgment of the district court is AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00265-A Document 34 Filed 02/07/20

Page 1 of 5 PageID 81

mntteb g;tate~ Jet~trtct ~ourt

FEB - 7 2020

Northern District of Texas
Fort Worth Division

UNITED STATES OF AMERICA

§

v.

§

RAP AEL AYALA-SOLORIO

§

CLERK,
CTCOUitT
By ____~ik~-~~,ut~v------Case Number: 4:19-CR-265-A(01)

JUDGMENT IN A CRIMINAL CASE
The government was represented by Assistant United States Attorney Michael Levi
Thomas. The defendant, RAFAEL AYALA-SOLORIO, was represented by Federal Public
Defender through Assistant Federal Public Defender Michael A. Lehmann.
The defendant pleaded guilty on September 27, 2019 to the one count indictment filed on
September 11,2019. Accordingly, the court ORDERS that the defendant be, and is hereby,
adjudged guilty of such count involving the following offense:
Title & Section I Nature of Offense
8 U.S.C. § 1326(a) and (b)(l) Illegal Reentry After Deportation

Date Offense Concluded
August 6, 2019

Count
I

As pronounced and imposed on February 7, 2020, the defendant is sentenced as provided
in this judgment.
The court ORDERS that the defendant immediately pay to the United States, through the
Clerk ofthis Court, a special assessment of$100.00.
The court further ORDERS that the defendant shall notify the United States Attorney for
this district within 30 days of any change of name, residence address, or mailing address, as set
forth below, until all fines, restitution, costs, and special assessments imposed by this Judgment
are fully paid. If ordered to pay restitution, the defendant shall notify the court, through the clerk
of this court, and the Attorney General, through the United States Attorney for this district, of
any material change in the defendant's economic circumstances.
IMPRISONMENT
The court further ORDERS that the defendant be, and is hereby, committed to the
custody of the United States Bureau of Prisons to be imprisoned for a term of 120 months.
The defendant is remanded to the custody of the United States Marshal.

1

Case 4:19-cr-00265-A Document 34 Filed 02/07/20

Page 2 of 5 PageID 82

SUPERVISED RELEASE
The court further ORDERS that, upon release from imprisonment, the defendant shall be
on supervised release for a term of three (3) years. The court imposed a term of supervised
release because it will provide an added measure of deterrence and protection based on the facts
and circumstances of this case.
Pursuant to 18 U.S.C. §3583(d), as a condition of supervised release, upon the
completion of the sentence of imprisonment the defendant shall be surrendered by the Federal
Bureau of Prisons to a duly-authorized immigration official for deportation in accordance with
the established procedures provided by the Immigration and Nationality Act, 8 U.S.C. § 1101 et
seq. As a further condition of supervised release, if ordered deported the defendant shall remain
outside the United States.
In the event the defendant is not deported immediately upon release from imprisonment,
or should the defendant ever be within the United States during any portion of the term of
supervised release, the defendant shall comply with the following conditions of supervised
release:
1.

The defendant shall not unlawfully possess controlled substances.

2.

The defendant shall not commit another federal, state, or local crime.

3.

The defendant shall cooperate in the collection of DNA as directed by the U.S. Probation
Officer, as authorized by the Justice for All Act of 2004.

4.

The defendant shall refrain from any unlawful use of a controlled substance, submitting
to one drug test within 15 days of release from imprisonment and at least two periodic
drug tests thereafter, as directed by the probation officer pursuant to the mandatory drug
testing provision of the 1994 crime bill.

5.

The defendant shall participate in a program approved by the probation officer for
treatment of narcotic or drug or alcohol dependency that will include testing for the
detection of substance use, abstaining from the use of alcohol and all other intoxicants
during and after completion of treatment, contributing to the costs of services rendered at
the rate of at least $25 per month.

6.

The defendant shall also comply with the Standard Conditions of Supervision as
hereinafter set forth.

Standard Conditions of Supervision
1.

The defendant shall report in person to the probation office in the district to which the
defendant is released within seventy-two (72) hours of release from the custody of the
Bureau of Prisons.

2.

The defendant shall not possess a firearm, destructive device, or other dangerous weapon.
2

-----------------------------------··
Case 4:19-cr-00265-A Document 34 Filed 02/07/20

Page 3 of 5 PageID 83

3.

The defendant shall provide to the U.S. Probation Officer any requested financial
information.

4.

The defendant shall not leave the judicial district where the defendant is being supervised
without the permission of the Court or U.S. Probation Officer.

5.

The defendant shall report to the U.S. Probation Officer as directed by the court or U.S.
Probation Officer and shall submit a truthful and complete written report within the first
five (5) days of each month.

6.

The defendant shall answer truthfully all inquiries by the U.S. Probation Officer and
follow the instructions ofthe U.S. Probation Officer.

7.

The defendant shall support his dependents and meet other family responsibilities.

8.

The defendant shall work regularly at a lawful occupation unless excused by the U.S.
Probation Officer for schooling, training, or other acceptable reasons.

9.

The defendant shall notify the probation officer at least ten (10) days prior to any change
in residence or employment.

I 0.

The defendant shall refrain from excessive use of alcohol and shall not purchase, possess,
use, distribute, or administer any narcotic or other controlled substance, or any
paraphernalia related to such substances, except as prescribed by a physician.

11.

The defendant shall not frequent places where controlled substances are illegally sold,
used, distributed, or administered.

12.

The defendant shall not associate with any persons engaged in criminal activity, and shall
not associate with any person convicted of a felony unless granted permission to do so by
the U.S. Probation Officer.

13.

The defendant shall permit a probation officer to visit him at any time at home or
elsewhere and shall permit confiscation of any contraband observed in plain view by the
U.S. Probation Officer.

14.

The defendant shall notify the probation officer within seventy-two (72) hours of being
arrested or questioned by a law enforcement officer.

15.

The defendant shall not enter into any agreement to act as an informer or a special agent
of a law enforcement agency without the permission ofthe court.

16.

As directed by the probation officer, the defendant shall notify third parties of risks that
may be occasioned by the defendant's criminal record or personal history or
characteristics, and shall permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement.

3

.. ·-

Case 4:19-cr-00265-A Document 34 Filed 02/07/20

Page 4 of 5 PageID 84

The court hereby directs the probation officer to provide defendant with a written
statement that sets forth all the conditions to which the term of supervised release is subject, as
contemplated and required by 18 U.S.C. § 3583(f).

The court did not order a fine because the defendant does not have the financial resource
or future earning capacity to pay a fine.

STATEMENT OF REASONS
The "Statement of Reasons" and personal information about the defendant are set forth
on the attachment to this judgment.
Signed this the 7th day of February, 2020.

4

Case 4:19-cr-00265-A Document 34 Filed 02/07/20

Page 5 of 5 PageID 85

RETURN
I have executed the imprisonment part of this Judgment as follows:

Defendant delivered on -------------, 2020 to ----------------------------at ------------------------------------' with a certified copy of this Judgment.

United States Marshal for the
Northern District of Texas
By _______________________________

Deputy United States Marshal

5

